                      Testimony of

           The Honorable Todd J. Zinser
                   Inspector General

              U.S. Department of Commerce


                        before the

    House Committee on Science, Space and Technology

       Subcommittee on Investigations and Oversight


Mismanagement of Funds at the National Weather Service
  and the Impact on the Future of Weather Forecasting


                   September 12, 2012
Madam Chair, Ranking Member Tonko, and Members of the Subcommittee:

I appreciate the opportunity to testify today about the Department of Commerce’s response to
National Oceanic and Atmospheric Administration (NOAA) National Weather Service’s
(NWS’) mismanagement of budgetary resources. Our testimony will address three areas:

   1. Numerous whistleblower complaints, dating back to 2010, many of which have since
      been validated by multiple reviews of NWS financial mismanagement;
   2. Separate Departmental and NOAA internal inquiries, resulting in both the
      Department and NOAA undertaking significant corrective action; and
   3. Recent and current Office of Inspector General (OIG) follow-up reviews, to
      measure the sufficiency of the internal inquiries and the resulting corrective actions.

I. Whistleblower Complaints

Between June 2010 and August 2012, OIG received eight complaints concerning unauthorized
reprogramming at NWS. In addition, beginning in January 2012, OIG received a series of four
complaints alleging contracting improprieties in the NWS Office of the Chief Financial Officer
(OCFO), concerning the employment of a consultant who had formerly been a senior OCFO
official. We have summarized these complaints chronologically (see below):
      GAO hotline referral (received June 17, 2010)—OIG received a mailed letter
       from GAO’s FraudNet, dated May 25, 2010, forwarding an anonymous complaint that
       NWS OCFO moved appropriated funds from “program to program” to pay for
       underfunded and underestimated costs. This anonymous complaint listed NOAA’s
       Deputy Under Secretary for Operations, along with OIG and other parties, as being
       sent copies of the complaint. OIG, having received only the GAO referral, did not take
       action at the time, filing the complaint for future reference. We later learned that (a)
       NOAA had previously received this identical complaint, in April 2010 or earlier; (b)
       NOAA had assigned it to NWS OCFO; and (c) in April 2010, NWS OCFO had drafted
       a response to NOAA’s Deputy Under Secretary for Operations addressing the
       allegations. We are not aware of NWS OCFO ever having finalized its response.
      OIG hotline complaint (received October 31, 2010)—OIG received a second
       anonymous complaint through an online form, which alleged that NWS was
       inappropriately reprogramming appropriated funds for the Advanced Weather
       Interactive Processing System (AWIPS) to pay for other activities. OIG commenced a
       review of the complaint; on November 18, 2011, we issued a memorandum to the
       NWS OCFO and other senior NOAA and Department officials, concluding that $10
       million in AWIPS funds were shifted to other accounts without a reprogramming
       request. (See section III of this testimony for further details.)
      OIG hotline complaint (received June 14, 2011)—OIG received another
       anonymous online complaint, stating that “rumors abound” that NWS OCFO staff were
       “spending many hours building a cover story” about financial mismanagement. OIG sent
       this complaint to NOAA for internal inquiry, the results of which were reported in
       NOAA’s November 2011 preliminary report, AWIPS Funding Investigation Report:


                                                2
    Response to OIG Referral Number PPC-CI-11-0442-H. This 17-page report (excluding
    appendixes) found that, over the 2 years examined—fiscal years (FYs) 2010 and 2011—
    NWS OCFO (a) engaged in a strategy to address NWS budget shortfalls through the
    reallocation of program funding and (b) because shortfalls were not addressed at the
    start of the fiscal year, created a need during the year to continually reallocate funds.
    The report concluded that these actions “created an environment of uncertainty, and
    lack of transparency that relies on ad hoc budget manipulations during the fiscal year to
    ensure solvency,” in violation of the FYs 2010 and 2011 appropriations acts.
   OIG hotline complaint (received November 1, 2011)—An NWS employee
    emailed OIG’s hotline alleging an NWS OCFO redirection of FY 2012 Next Generation
    Weather Radar System (NEXRAD) Operations and Maintenance funds to pay for its
    Product Improvement Program. OIG sent this complaint to NOAA and requested that
    the agency consider it along with the June 14 allegations.
   OIG hotline complaints (received beginning January 11, 2012)—Beginning on
    this date, OIG received a series of four anonymous complaints, involving a former
    senior employee in NWS OCFO, that are the subject of an ongoing OIG investigation.
    The complaints alleged contract improprieties related to the hiring of this former
    employee as a consultant for NWS OCFO, including improper payment of lodging. One
    complaint alleged the consultant attempted to use undue influence in an effort to get a
    family member a contract position at NWS. Specifically, this complaint alleged that
    funding sources for their programs would be provided if they agreed to hire the relative.
    While our investigation is ongoing, we have determined that NOAA provided the
    contractor housing valued at more than $52,000 and spent more than $336,000 in
    wages for this consultant’s services over a period of one and a half years. We promptly
    notified NOAA of our preliminary findings concerning the consultant’s efforts to secure
    a job for the family member; NOAA took swift action to terminate the consultant’s
    employment with the agency.
   OIG hotline complaint (received February 4, 2012)—OIG received an email
    from an NWS employee who alleged that the agency overspent available funds by more
    than $100 million over the past several fiscal years. OIG sent this complaint to the
    NOAA/Department team conducting the internal inquiry, requesting its inclusion with
    the existing inquiry.
   GAO hotline referral (received April 16, 2012)—OIG received a second GAO
    Fraudnet complaint, alleging that NWS OCFO was not the only NOAA office that knew
    of, and was responsible for, the improper reprogramming of funds. The complainant
    alleged that NWS and NOAA OCFO also had knowledge of the unauthorized
    reprogramming of funds. OIG sent this complaint to the NOAA/Department team
    conducting the internal inquiry, requesting its inclusion with the existing inquiry.
   OIG hotline complaint (received June 11, 2012)—After the Department and
    NOAA jointly issued the internal inquiry report responding to the reprogramming
    allegations, OIG received another anonymous complaint. It contained allegations that,
    despite the investigation, the unauthorized reprogramming of funds at NWS had
    continued unabated. The complainant suggested that the unauthorized reprogramming



                                            3
          has been taking place since 2004, when NWS failed in its attempt to restructure as a
          way to mitigate budget shortfalls. OIG is currently investigating these allegations.
         OIG hotline complaint (received August 18, 2012)—OIG received another
          complaint from a senior NWS employee, who raised concerns about how NWS
          continues to handle its financial challenges, including the lack of sufficient oversight and
          appropriate measures to mitigate funding shortfalls. The complainant reported being
          told specifically to use funds from what the complainant described as “admittedly” not
          the “right pocket.” We are currently assessing this complaint in conjunction with our
          ongoing review (see section III of this testimony for further details).
II. Departmental and NOAA Internal Inquiries

The Department’s Internal Inquiry Report (May 11, 2012)

On May 11, 2012, the Department of Commerce issued its Internal Inquiry into Alleged
Mismanagement of Funds Within the National Weather Service. The Department initiated this
executive-level inquiry, jointly with the National Oceanic and Atmospheric Administration
(NOAA), following the agency’s preliminary inquiry into OIG hotline and other complaints
regarding suspected improper reallocation of expenses within NWS. NOAA’s preliminary
inquiry concluded that the NWS OCFO may have engaged in the unauthorized reprogramming
of its program funds in FYs 2010 and 2011, in violation of the appropriations acts for those
years. The Department carried out its follow-up inquiry to examine the reported issues in
greater depth and validate NOAA’s initial findings.

As stated in its May 11, 2012 report, the Department and NOAA jointly:
        Conducted more than 30 interviews of over 20 witnesses;
        Performed financial analyses;
        Consulted with OIG, NOAA OCFO, and the Department’s Office of General Counsel
         (OGC); and
        Examined large numbers of documents, e-mails, memoranda, and spreadsheets related to
         the allegations.
In addition to the unauthorized reprogramming of NWS funds in FYs 2010 and 2011, the
Department found that significant management, leadership, budget, and financial control
problems led to an environment where such activity could occur, including what the
Department terms “summary level transfers” (SLT) to reallocate expenses. The Department
uses SLTs to provide financial officers flexibility for reassigning accounting codes on past
expenses, for reasons including fixing account code errors. For the reprogramming, NWS used
SLTs to change accounting codes on expenses previously paid out of the NWS Local Warnings
and Forecasts (LWF) base budget to those of other activities, thereby freeing up flexible LWF
funds for almost any purpose. The full range of Departmental findings includes:
        The improper use of SLT accounting to facilitate the inappropriate reallocation of
         expenses;




                                                    4
     An inappropriate assessment of required NWS program office payments for common
      services;
     NWS OCFO staff ultimately participating in the unlawful reprogramming of funds, despite
      their objections;
     Failed oversight of and an environment of mistrust at NWS OCFO;
     A lack of timely responsive action from NOAA, the Department, and OIG;
     Possible improprieties in the reallocation of expenses; and
     Financial and management controls that were ineffective at preventing an unlawful
      reprogramming of funds. 
Since the release of the May 11, 2012, report, the Department and NOAA have proceeded
with several directives, reviews, and studies focused on Departmental and NWS budget,
training, and reporting structure issues. Acting Secretary Rebecca Blank and Under Secretary of
Commerce for Oceans and Atmosphere Jane Lubchenco issued separate decision memoranda
on May 24, 2012, with specific actions for correcting the conditions leading to the report’s
findings. These decision memoranda require Departmental action on 20 distinct activities,
including audits, organizational reporting adjustments, and changes to budget formulation and
execution processes.

Deputy (Acting) Secretary Response to the Internal Inquiry Report (May 24, 2012)

On May 24, 2012, the Deputy Secretary (now Acting Secretary) provided 8 directives requiring:
     1. An implementation plan for each of the decisions contained In Under Secretary
        Lubchenco's memo, with a timetable and milestones;
     2. A comprehensive review of all Department SLTs;
     3. Examination of the Department’s budget formulation and reporting structure;
     4. Financial, reprogramming, Anti-Deficiency Act (ADA), and appropriations law training
        for Department staff;
     5. Budget and appropriations law training for Departmental senior executives and political
        appointees;
     6. Complaint handling training for Departmental senior executives and political appointees;
     7. A review of Departmental budget allocations for common services; and
     8. A review of the Department’s line office reporting structure

NOAA Response to the Internal Inquiry Report (May 24, 2012)

Also on May 24, 2012, the Under Secretary of Commerce for Oceans and Atmosphere issued a
memorandum summarizing the findings and 14 recommendations made by the inquiry team, and
provided the following additional 12 administrator decisions to:
     1. Deliver FY 2012 NWS reprogramming request to Congress;



                                                5
   2. Fully fund NWS headquarters operations, assess NWS common services, and deliver
      training for NOAA staff on common services assessments;
   3. Add the NOAA CFO to the line office budget reporting structure;
   4. Expand NOAA CFO responsibility for reviewing SLTs;
   5. Ensure input from NWS program officials on budget decisions;
   6. Document NWS budget formulation and execution process and include regular
      briefings;
   7. Ensure NOAA financial skills assessment and training;
   8. Initiate NWS financial and program audit and address structural deficit;
   9. Investigate whether an NWS ADA violation occurred and meet with Congress on
      reprogramming;
   10. Conduct an independent financial audit and address NWS structural deficit and shortfall;
   11. Review and recommend changes to NOAA complaint handling; and
   12. Review NOAA’s line office oversight and reporting structure.

On August 31, 2012, OIG received a Departmental report that intends to fulfill one of its
corrective actions. We expect that soon we will receive notice of other outcomes of the
Department’s and NOAA’s corrective actions, many of which had deadlines in July–August
2012. As of September 7, we have not yet concluded our review of these results.

Among the corrective actions is a determination of whether NWS committed a violation of the
ADA. The ADA requires the head of an executive agency to report any known violation of that
law to the President and the Congress. It is our understanding that a determination is pending
with the Department. In cases where a violation was knowing and willful, the Department of
Justice (DOJ) will review the matter. DOJ has stated that it will await the Department’s
determination before proceeding with further review.

III. OIG Follow-Up Reviews

Memorandum to NWS CFO (November 18, 2011)

Concurrent with NOAA’s preliminary inquiry, our office commenced a review of NWS
reprogramming issues in December 2010. In discussions with our staff, NOAA budget officials
asserted that there was not a reprogramming issue and maintained that NWS’ actions were
proper. Notwithstanding, our team identified continued concerns regarding the reprogramming
issues. As a result, OIG issued a November 18, 2011, memorandum to the NWS CFO (with
copies going to the NOAA CFO and two Department budget officials) requesting a formal
review and response by NOAA and Department budget officials on the appropriateness of
these actions. (See appendix for the full memorandum.)

We found that NWS had not submitted any reprogramming requests for the AWIPS
program—for which Congress stipulated virtually full funding within its FY 2010 appropriation
for the Department. However, in March 2011, we met with officials responsible for managing


                                               6
the AWIPS program, who reported that a significant diversion (over $10 million) of AWIPS-
appropriated funding occurred during FY 2010. AWIPS management also reported that they did
not know the destination or ultimate use of the redirected funds.

Finally, our memorandum further detailed our April 19, 2011, meeting with NWS budget
officials, who outlined how over $10 million in AWIPS funding had been shifted to other
accounts, primarily to cover NWS overhead. Based on this meeting and our review of related
documentation, we made a preliminary determination that the primary reason for the shift was
to fund an NWS budget shortfall—and that this shifting of funds from the AWIPS program to
other uses by NWS would likely require Congressional approval (as stipulated in section 505 of
Public Law 111-117, the Consolidated Appropriations Act of 2010).

We concluded the memorandum by requesting that NWS confirm with Department officials
that the AWIPS funding shift did not violate any applicable appropriations law or regulation, as
was asserted to OIG. We did not receive a response from NOAA or the Department but
were provided a copy of NOAA’s November 28, 2011, report on its preliminary inquiry into
these issues.

Current OIG Work

Upon the Department’s conducting of its internal inquiry, the Senate Committee on
Appropriations asked us to review the reprogramming request. We provided our observations
to the staff of the Senate Committee on Appropriations; the House and Senate appropriations
committees subsequently approved the reprogramming request.

Our focus has shifted from reviewing the reprogramming request to evaluating the
Department’s progress in taking corrective action. Upon receiving the Department’s May 11,
2012, internal inquiry report concerning these issues, we assessed the report’s conditions and
findings and how the Department evaluated them.

OIG Review. Our preliminary review of the Department’s actions has included:

    Receiving the Department’s supporting documentation related to the May 11 internal
     inquiry report;
    Communicating with House and Senate appropriations staff about the NWS
     reprogramming request ;
    Discussing NWS reprogramming with financial statement auditors;
    Meeting with NWS budget officials to discuss reprogramming, budget details, budget
     shortfalls, and OIG access to working papers;
    Receiving a statement of work on a NOAA-contracted audit of structural deficit and
     shortfalls.




                                                7
Our objective in reviewing the Department’s May 2012 responses to its internal inquiry results
is to determine the adequacy of actions taken by the Department and NOAA in addressing the
related budget reprogramming issues. The scope of our review includes:
    The Department’s audit of budgetary SLTs;
    NOAA’s audit of structural deficit and budget shortfalls,
    The FY 2013 operational budget, including fully-funded headquarters operations;
    NOAA’s updated budget reporting structure;
    NOAA’s updated procedures for common services budget allocations:
    NOAA’s updated procedures for OCFO-level SLT review; and
    NWS’ updated budget formulation and execution processes.

Our follow-up review is consistent with our emphasis that the Department and its management
should be responsible for first addressing management issues of compromised controls when
they arise. Generally, when OIG receives a hotline complaint that is administrative in nature
and most appropriately addressed by Departmental or agency management, we refer the
complaint to the Department or agency for inquiry and any appropriate corrective action. This
is common practice across the government. Often, our referrals require a response from the
Department or agency. The Department’s responses, such as the one issued by the
Department and NOAA in May 2012, underscore the Department’s responsibility in addressing
mismanagement issues.

Investigative Inquiries. Finally, OIG investigators are currently carrying out two NWS-related
inquiries received since the conclusion of the Department’s inquiry. One complaint, received in
June 2012, alleged that (a) NWS’ unauthorized reprogramming of appropriated funds also
occurred prior to 2010 and (b) senior NWS and NOAA officials were aware of this practice.
Accordingly, OIG is currently investigating these issues to determine whether this improper
activity began prior to FY 2010 (the earliest timeframe examined in the Department’s May 2012
report), as well as to identify senior officials who may have been aware of this activity and when
they became aware of it. The second complaint, which we received in August 2012, alleged that
NWS reprogramming of appropriated funds is still occurring at NWS; we are assessing this
information as part of our ongoing review of this matter. Additionally, we have an open
investigation involving allegations of the improper hiring of, and providing of lodging at no cost
to, a retired NWS senior executive in the NWS OCFO.

This concludes my prepared statement, and I will be pleased to respond to any questions you
or other Subcommittee members may have.




                                                8
Appendix

Memorandum to NWS CFO (November 18, 2011)




                                    9
10
11
12
OIG-12-036-T


               13
